David J. Zimmer
+1 617 570 1192
DZimmer@goodwinlaw.com

Goodwin Procter LLP
100 Northern Ave
Boston, MA 02210
goodwinlaw.com
+1 617 523-1000

May 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Niz-Chavez v. Barr, No. 19-863
Dear Mr. Harris:
In its brief in opposition (at 16) and in its May 1, 2020 letter to this Court, the government opposed
certiorari in part based on the pendency of a petition for rehearing en banc in Guadalupe v. Attorney
General of the U.S., 951 F.3d 161 (3d Cir. 2020). Today the Third Circuit denied the government’s
petition for rehearing en banc in that case.
The Third Circuit’s decision, together with the Tenth Circuit’s denial of the government’s petition
for rehearing en banc in Banuelos-Galviz v. Barr, 953 F.3d 1176 (10th Cir. 2020), see Gov’t May 1, 2020
Letter, makes clear that those circuits will not recede from their conflict with the Fifth and Sixth Circuits.
Circuits on both sides of the split have now refused to reconsider, and the government’s argument that the
circuit conflict may resolve without this Court’s intervention is no longer tenable. See Cert. Reply Br. 4.
The government does not otherwise dispute that the question presented in this case is sufficiently
important and recurring to merit this Court’s review; indeed, the importance and recurrence of the question
presented were key reasons why the government sought rehearing en banc in multiple circuits. See Cert.
Reply Br. 4-7. Moreover, this case is an appropriate vehicle to resolve that certworthy question, as the
Sixth Circuit’s ruling on the question presented was the only basis on which Mr. Niz-Chavez was denied
the opportunity to apply for cancellation of removal. See Cert. Reply Br. 7-10.
I would appreciate your distributing this letter to the Court as soon as possible, as the petition has
already been distributed for the May 28 Conference.
Sincerely,

David J. Zimmer
cc:

Counsel of Record

